               OFFICE OF
               INSPECTOR GENERAL
               U.S.DEPARTMENT OF THE: INTERIOR


                                                                                         September 16, 2011

Memorandum

To:            Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up, Office of Financial
                Management

               Daniel Ashe
               Director, U.S. Fish and Wildlife Service

               Jonathan Jarvis


From:          Charles Haman
               Regional Manag

Subject:       Verification Review ofNine Recommendations from Our September 2008
               "Final Audit Report: DOl's Hurricane Rebuilding Efforts (Report No.
               C-IN-MOA-0006-2007)"
               Report No. C-VS-MOA-0004-2011

       The Office of Inspector General (OIG) completed a verification review of nine
recommendations presented in the "Final Audit Report: DOl' s Hurricane Rebuilding Efforts
(Report No. C-IN-MOA-0006-2007)." Our objective was to determine whether the
recommendations made to the U.S. Department of the Interior (DOl), National Park Service
(NPS), and U.S. Fish and Wildlife Service (FWS) were implemented as reported to the Office of
Financial Management (PFM), Office of Policy, Management and Budget (PMB).

        We have received the following notifications.

           •   On October 28, 2008, NPS notified OIG that the agency had taken appropriate
               action to implement Recommendation 5 by conducting a training course in June
               2008 and that they consider Recommendation 5 fully implemented and closed.
           •   On December 8, 2008, PFM reported that DOl had completed actions required to
               close Recommendation 3.
           •   On July 22, 2009, PFM reported that FWS had completed actions required to
               close Recommendations 4.




                         Office of Audits, Inspections, and Evaluations 1 Lakewood, CO
           •   On October 5, 2009, PFM reported that FWS had completed actions required to
               close Recommendation 6.
           •   On August 4, 2010, PFM reported that NPS had completed actions required to
               close Recommendations 1a, lb, and 2.
           •   On September 9, 2010, PFM reported that FWS had completed actions required to
               close Recommendation 7.
           •   On September 13,2010, PFM reported that FWS had completed actions required
               to close Recommendation 5.

Background

        Our September 2008 audit report, "Final Audit Report: DOl's Hurricane Rebui lding
Efforts (Report No. C-IN-MOA-0006-2007)" made nine recommendations concerning DOl's
response to damage sustained during the 2005 hurricane season. We focused on NPS and FWS to
determine whether they appropriately spent supplemental funds to repair and rebuild hurricane
damaged assets.

        In a memorandum dated November 4, 2008, OIG referred all open recommendations to
the Assistant Secretary for Policy, Management and Budget for resolution and/or tracking. On
April 8, 2009, OIG subsequently offered its opinion on additional information received from
NPS for Recommendations 1 and 2. OIG recommended that PMB keep both of these
recommendations open. Recommendation 4 remained open as well.

Scope and Methodology

        The scope of this review was limited to determining whether DOI and its bureaus took
action to implement the nine report recommendations. To accomplish our objective, we reviewed
the supporting documentation that PFM, NPS, FWS, and DOI provided concerning their
response to the nine recommendations.

        We did not perform any site visits or conduct any detailed fieldwork to determine
whether the underlying deficiencies that were initially identified have been corrected. As a result,
this review was not conducted in accordance with the " Government Auditing Standards" issued
by the Comptroller General of the United States.

Results of Review

      Our current revtew found that DOI, NPS, and FWS implemented all of the
recommendations.

Recommendation la: NPS should establish a dedicated project management team to oversee
and coordinate hurricane-related proj ects through completion. The team should coordinate




                                                 2
rebuilding efforts among relevant divisions, including safety, engineering, procurement, and
finance divisions to ensure that the highest priority projects are completed first.

        A March 6, 2009 memorandum from the NPS comptroller to the Assistant Inspector
General for Audits provided additional information on specific actions taken by NPS to comply
with the report recommendations. Representatives gathered for an NPS disaster recovery
workgroup meeting,_where members recommended instituting a national team approach to
financial oversight and overall program management, provided concise problem and solution
sets, and suggested near-term deadlines for draft policy development. A working guide to
oversight team composition for disaster recovery was in place by June 1, 2009.

Action Taken: NPS established a management oversight group in response to the American
Recovery and Reinvestment Act of 2009 (ARRA). The NPS comptroller chairs the oversight
group, which includes the functional area chiefs of facilities, construction, human resources, and
contracting. The oversight group reviews policies and projects, and proposes methods to
streamline practices for efficiency. The ARRA program plan, prepared by NPS in April2009,
describes the oversight group in detail.
       After reviewing the ARRA program plan, we conclude that Recommendation la is
resolved and implemented.

Recommendation lb: NPS should establish a dedicated project management team to oversee
and coordinate hurricane-related projects through completion. The team should establish a
reasonable timeline for completion of all current and future hurricane projects funded by
supplemental appropriations.

       A March 6, 2009 memorandum from the NPS comptroller to the Assistant Inspector
General for Audits provided additional information on specific actions taken by NPS to comply
with report recommendations. The NPS Southeast Regional Office (Southeast Region)
developed an execution plan, by project, for the remaining unobligated and unexpended
Hurricane Katrina supplemental funding. This document includes a timeline for the completion
of each project.

Action Taken: In March 2009, the Southeast Region identified the obligation plan for all
remaining hurricane recovery work. In October 2009 and March 2010, the remaining projects
were reviewed and the final closeout schedule established for the Hurricane Katrina
supplemental appropriation. With a few documented exceptions, all Hurricane Katrina
supplemental appropriation project work was scheduled to be obligated by September 30, 2010.
       After reviewing the obligation plan, which establishes a timeline for completion of all
hurricane projects funded by supplemental appropriations and which shows current status and
percentage of funds obligated, we conclude that Recommendation 1b is resolved and
implemented.




                                                3
Recommendation 2: NPS should develop and implement policies and procedures that expedite
the construction process for projects related to future emergency fundi ng.

         A March 6, 2009 memorandum from the NPS comptroller to the Assistant Inspector
General for Audits provided additional information on specific actions by NPS to comply with
the report recommendations. Representatives gathered for an NPS disaster recovery workgroup
meeting to provide an update on NPS response to the recommendations and to recommend
policy and process changes to accelerate future NPS disaster recovery efforts. Most emergency
construction processes have been streamlined in the years subsequent to Hurricane Katrina, such
as scaling back the planning and approval process for projects of low complexity, raising the
threshold for projects requiring Development Advisory Board review to $1 million, and
instituting emergency review procedures.

Action Taken: The Development Advisory Board has instituted a staff review procedure to
streamline project management and approval processes for all emergency construction projects.
Additionally, the Washington Office Construction Management Division Chief is a member of
the ARRA management oversight group, which allows immediate response to areas of concern.
These procedures have had a direct impact on NPS ability to execute ARRA funding and will be
critical to executing future emergency funding.
       After reviewing the NPS memorandum outlining the new review procedures, we
conclude that Recommendation 2 is resolved and implemented.
Recommendation 3: DOl should work with the bureaus to develop a process that ensures timely
reporting of supplemental funding proj ect allocation changes to DOl's budget office, PFM, and
Congress.

        The Office of Budget sent a memo to PFM on December 1, 2008, requesting closure of
this recommendation, effective November 24,2008, because of the issuance of reprogramming
instructions, which included guidance for "reporting of changes to supplemental funding project
allocations."

Action Taken: Supplemental funding can only change through reprogramming. The Office of
Budget has recently issued instructions concerning DOl funds control and reprogramming. These
instructions include specific reference to supplemental funding and state that this type of funding
is subject to the same rules and reprogramming guidelines as other appropriations.
       After reviewing the reprogramming instructions, we conclude that Recommendation 3 is
resolved and implemented.

Recommendation 4: FWS should develop and implement policies that require: a) a cost-benefit
analysis for decisions to rebuild or repair damaged property; b) a needs-based analysis to justify
expansion of capital improvement of damaged property; and c) a health and safety survey to
ensure that a damaged building is safe for occupancy.




                                                4
      The FWS deputy director responded to Recommendation 4 in a September 26, 2008
memorandum to the Assistant Inspector General for Audits, stating that the Southeast Region
emergency recovery team is developing a disaster recovery plan for future recovery activities.
Action Taken: An operational plan to guide emergency recovery activities in the Southeast
Region has been finalized and signed by the appropriate leadership. This plan provides a
recovery process roadmap and policy guidance by outlining the necessary steps from initial
damage reporting to contract closeouts and final reporting requirements. All items in the above
recommendation have been addressed, in addition to topics such as emergency recovery team
formation; project validation, accounting and execution; and documentary requirements.

     After reviewing pertinent sections of the disaster recovery plan, we conclude that
Recommendation 4 is resolved and implemented.
Recommendation 5: FWS and NPS should develop and implement procedures, including
training, to ensure that contracting officers comply with all applicable requirements under the
Small Business Administration (SBA) Partnership Agreement, including monitoring contractor
performance.

        NPS responded to the draft audit report in a June 6, 2008 memorandum, stating that
training already had been scheduled and therefore that this recommendation should be
considered fully implemented and closed. The FWS deputy director responded to
Recommendation 5 in a September 26, 2008 memorandum to the Assistant Inspector General for
Audits, stating that FWS is developing guidance to ensure that regional contracting officers
comply with all applicable requirements under the SBA Partnership Agreement, including
monitoring contractor performance. Training will be conducted as part of implementation.
Action Taken (FWS): FWS conducted in-house training December 18, 2008, covering the
requirements outlined in the SBA Partnership Agreement, in keeping with FAR 52.219-4.
Attendees received sample letters informing contractors ofthe subcontracting limitations and
compliance form s. Periodic monitoring for compliance is being performed on all applicable
contract files. Section 5 of the June 30, 2009 FWS disaster recovery plan states that acquisition
and contracting will adhere to all service policies, guidance, and procedures.
       After reviewing relevant portions of the disaster recovery plan and the presentation from
the December 2008 in-house training, we conclude that Recommendation 5 is resolved and
implemented.
Action Taken (NPS): The Denver Service Center scheduled training for NPS that covered the
SBA Partnership Agreement and, in particular, monitoring compliance with the "Limitations on
Subcontracting" clause. This training, open to the NPS acquisition community, was a part of the
June 25, 2008 contracting community conference call. Because the June 2008 training was
recorded, NPS has made the transcript available to other contracting officers throughout NPS
who continue to make this training module available to others who may, at some future time,
have a need to develop contracting skills.




                                                 5
       After reviewing the NPS response and the transcript from their training class, we
conclude that Recommendation 5 is resolved and implemented.

Recommendation 6: FWS should require the concessioner to collect insurance proceeds for the
concession building at J.N. "Ding" Darling National Wildlife Refuge and use those proceeds to
rebuild the damaged facility.

        The FWS deputy director responded to Recommendations 6 in a September 26, 2008
memorandum to the Assistant Inspector General for Audits, stating that FWS has begun taking
steps to collect applicable insurance proceeds.
Action Taken: The Southeast Region of FWS actively pursued the damage claim process by
requesting that the concessioner submit a formal damage claim to the insurance company. The
concessioner complied but was denied by the insurance company. The Southeast Region has
submitted a copy of the denial letter.
        After reviewing the denial by the insurance company, we conclude that Recommendation
6 is resolved and implemented.
Recommendation 7: FWS should re-evaluate its policy requiring concessioners to carry real
property hazard insurance.

       The FWS deputy director responded to Recommendation 7 in a September 26, 2008
memorandum to the Assistant Inspector General for Audits, stating that FWS is revising policy
to address this recommendation.

Action Taken: FWS Director's Order No. 139, section 12c (3) and (4), specifically requires
public liability insurance to protect both the concessionaire and the Government. The
concessionaire must name the Government as coinsured in each insurance policy for a
concession operation on Federal lands and waters. Property damage insurance for replacement
value of faci lities is also required.

     After reviewing FWS response and related documentation, we conclude that
Recommendation 7 is resolved and implemented.

Conclusion

        On September 6 and 7, 2011 , respectively, we informed FWS and NPS officials ofthe
 results of this review and they agreed with the results.


cc:    Alexandra Lampros, Liaison Officer, Office of the Secretary
       Nancy Thomas, Audit Liaison, Department of the Interior
       Patrick McHugh, Audit Liaison, U.S. Fish and Wildlife Service
       Vera Washington, Audit Liaison, National Park Service




                                               6
